OFFICE OF INSPECTOR GENERAL


FOLLOWUP AUDIT OF USAID’S
GOVERNMENTWIDE
COMMERCIAL PURCHASE
CARD PROGRAM
AUDIT REPORT NO. 9-000-08-009-P
August 26, 2008




Washington, DC
Office of Inspector General



August 26, 2008

MEMORANDUM

TO:            M/OAA, Director, Maureen Shauket
               M/CFO, Chief Financial Officer, David Ostermeyer

FROM:          IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:       Followup Audit of USAID’s Governmentwide Commercial Purchase Card
               Program (Audit Report No. 9-000-08-009-P)


This memorandum transmits the Office of Inspector General’s final report on the subject
audit. In finalizing the report, we carefully considered your comments on the draft report and
included your comments in their entirety as appendix II.

The report includes four recommendations for your action. Based on the information
provided in your responses to the draft report, we conclude that management decisions
have been reached for all four recommendations. Determination of final action for these
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the planned actions.

I sincerely appreciate the cooperation and courtesies extended to my staff during this audit.
CONTENTS
Summary of Results ............................................................................................................. 1

Background ........................................................................................................................... 4

          Audit Objective ............................................................................................................ 4

Audit Findings ....................................................................................................................... 5

          USAID Should Increase Purchase Card Use at
          USAID/Washington and Overseas Missions ……………….........................................6

          USAID Should Maximize Prompt Payment Rebates…………………..........................9

          USAID Should Strengthen Training
          for Cardholders and Supervisors............................................................................... 10

          USAID Should Fully Implement
          Its Annual Review Program....................................................................................... 13

Evaluation of Management Comments ............................................................................. 15

Appendix I – Scope and Methodology .............................................................................. 17

Appendix II – Management Comments ............................................................................. 19

Appendix III – Findings and Recommendations from the OIG’s 2002 Audit of
USAID’s Governmentwide Commercial Purchase Card Program...................................23
SUMMARY OF RESULTS
The Governmentwide commercial purchase card program was established to
streamline the acquisition process and reduce administrative costs and time required to
purchase and pay for goods and services. USAID’s Office of Acquisition and Assistance
serves as the Agency’s purchase card program manager, while USAID’s Chief Financial
Officer directs, manages, and provides policy guidance and oversight of financial
management personnel, activities, and operations related to the purchase card program
(see page 4).

The Office of Inspector General’s Audit of USAID’s Governmentwide Commercial
Purchase Card Program, dated March 19, 2002, identified numerous problems, including
(1) not using purchase cards for all eligible transactions, (2) not paying purchase card
invoices promptly, (3) not sufficiently training cardholders and program supervisors, and
(4) not providing adequate monitoring of the purchase card program (see page 4). The
objective of this followup audit was to determine whether USAID had corrected these
problems.

In response to the 2002 audit, USAID took several actions to strengthen the purchase
card program:

    •   The Office of Acquisition and Assistance developed new policies that required
        cardholders to use purchase cards for all procurements up to their approved
        card limit (see page 6).

    •   The Office of the Chief Financial Officer developed and implemented an
        accelerated payment system for USAID/Washington’s Citibank invoices (see
        page 10).

    •   The Office of Acquisition and Assistance developed and implemented an
        expanded training program for all USAID/Washington cardholders and
        supervisors (see page 11).

Thanks to these efforts, USAID/Washington personnel increased their card use from
about $321,000 in fiscal year (FY) 2000 to about $1.4 million in FY 2007. As a result, in
FY 2007 USAID/Washington achieved estimated transaction savings of $278,000.
Volume-based rebates and prompt payment rebates from Citibank totaled about $5,000
and $15,000, respectively (see page 5).

Despite these improvements, the Office of Acquisition and Assistance and the Chief
Financial Officer did not correct all of the problems identified during the previous audit.
This followup audit identified several unresolved problems:

   •    Cardholders and procurement personnel did not use purchase cards for all
        eligible transactions, resulting in increased transaction costs and reduced
        volume-based rebates from Citibank (see page 6).




                                                                                          1
   •   USAID did not always pay its Citibank invoices promptly, resulting in reduced
       prompt payment rebates (see page 9).

   •   The Office of Acquisition and Assistance did not provide comprehensive training
       to mission personnel (see page 10).

   •   The Office of Acquisition and Assistance did not implement an effective
       cardholder annual review program with sufficient management controls over its
       purchase card program to minimize the risk of inappropriate use of purchase
       cards (see page 13).

To correct these problems, this report recommends that—

   •   The Director, Office of Acquisition and Assistance develop a plan to collect
       complete and accurate purchase card and purchase order data, assess
       variations in purchase card usage rates, and monitor Agencywide compliance
       with USAID requirements to maximize the use of purchase cards for all eligible
       transactions (see page 9).

   •   USAID’s Chief Financial Officer develop guidance and procedures to accelerate
       the payment of purchase card invoices to maximize prompt payment rebates for
       overseas missions (see page10).

   •   The Director, Office of Acquisition and Assistance develop a plan for a
       comprehensive purchase card training program for cardholders and supervisors
       at overseas missions (see page 12).

   •   The Director, Office of Acquisition and Assistance develop an implementation
       plan for an annual review program that incorporates appropriate segregation of
       duties (see page 14).

Implementation of these recommendations should help to reduce procurement
transaction costs by about $230,000 annually and increase purchase card rebates by
about $131,000 annually.

In comments to the report, the Office of Acquisition and Assistance and the Chief
Financial Officer agreed to take steps to respond to the report’s recommendations:

   •   The Office of Acquisition and Assistance will develop a program plan to collect
       complete and accurate purchase card data from the issuing bank and from its
       own data warehouse to assess variations in purchase card usage in order to
       monitor Agencywide compliance for all eligible procurements.

   •   The Chief Financial Officer will issue a directive that encourages operating unit
       managers to take advantage of accelerating payments on all Agency credit cards
       whenever practical.

   •   The Office of Acquisition and Assistance has developed a statement of work for
       the design and development of an online course for all cardholders and
       organization program coordinators.


                                                                                      2
•   The Office of Acquisition and Assistance will direct the Chief, Evaluation Division
    to develop procedures for an annual review of the purchase card program that
    incorporates appropriate segregation of duties for executive officers stationed
    overseas.




                                                                                     3
BACKGROUND
The Governmentwide commercial purchase card program was established to streamline
the acquisition process and reduce administrative costs and time required to purchase
and pay for goods and services. In 2006, the Association of Government Accountants
estimated that using the purchase card instead of traditional procurement methods could
save about $87 per transaction.

USAID implements its purchase card program through a Citibank contract that the
General Services Administration manages on a Governmentwide basis. An official
within USAID’s Office of Acquisition and Assistance serves as the Agency’s purchase
card program manager, while USAID’s Chief Financial Officer directs, manages, and
provides policy guidance and oversight of financial management personnel, activities,
and operations related to the purchase card program.

Citibank, the purchase card service provider, processes USAID’s card transactions and
pays rebates based on card volume and how quickly USAID pays its purchase card
invoices. In fiscal year 2007, USAID completed 8,760 small purchases (transactions
under $100,000), 72 percent using the purchase card and 28 percent using purchase
orders. Purchase card transactions for USAID/Washington and the overseas missions
totaled $6.7 million and resulted in about $35,000 in rebates.

In a March 2002 audit report, 1 the Office of Inspector General determined that—

    •   USAID had not used the purchase card for all eligible transactions.

    •   USAID frequently delayed its payments to Citibank by more than 30 days,
        resulting in lower rebates.

    •   USAID’s training program for cardholders and approving officials was too limited
        in scope and too infrequent to ensure that those individuals had and retained the
        knowledge to properly implement the purchase card program.

    •   USAID had not designed and implemented effective controls over its purchase
        card program to minimize the risk of inappropriate use.

AUDIT OBJECTIVE
The Office of Inspector General’s Performance Audits Division audited USAID’s
Governmentwide commercial purchase card program to answer the following question:

    •   Did USAID correct the problems identified during the Audit of USAID’s
        Governmentwide Commercial Purchase Card Program, audit report 9-000-02-
        004-P, dated March 19, 2002?

Appendix I contains a discussion of the audit’s scope and methodology.
1
 Audit of USAID’s Governmentwide Commercial Purchase Card Program, audit report 9-000-02-
004-P, dated March 19, 2002 (see appendix III).


                                                                                       4
AUDIT FINDINGS
Although USAID has made progress in implementing various aspects of its purchase
card program, the Agency has not fully corrected all of the problems identified during
the 2002 audit of USAID’s Governmentwide commercial purchase card program.

In response to the 2002 audit, USAID (1) revised Automated Directives System 331 to
require authorized staff to use purchase cards for all procurements up to their approved
card limit, (2) implemented an accelerated payment system for USAID/Washington
purchase card accounts, (3) expanded the training program for cardholders and
program supervisors, and (4) developed procedures for an annual cardholder review.
These new policies and procedures corrected some of the identified problems:

    •   Purchase card use increased from an estimated $321,000 in fiscal year (FY)
        2000 to $1.4 million in FY 2007 for USAID/Washington. As a result, during FY
        2007 USAID/Washington achieved estimated transaction savings of $278,000
        and generated volume-based rebates from Citibank of about $5,000.

    •   Using the accelerated payment system for invoices during FY 2007,
        USAID/Washington’s payments to Citibank averaged only 6.7 days from receipt
        of invoice, which resulted in prompt payment rebates of about $15,000.

    •   As a result of an expanded training program, USAID/Washington’s 106 cardholders
        and 54 of 55 program supervisors were trained on purchase card use.

Despite these improvements, USAID continues to experience problems related to its
purchase card program. USAID should do the following:

    • Increase purchase card use at USAID/Washington and overseas missions.

    • Maximize prompt payment rebates.

    • Strengthen training for cardholders and supervisors.

   •    Fully implement its annual review program.

These problem areas are discussed in the following sections.




                                                                                       5
USAID Should Increase Purchase Card Use at
USAID/Washington and Overseas Missions

 Summary: USAID’s Automated Directives System 331.3 requires the use of
 purchase cards for purchases up to $100,000. Although USAID/Washington’s
 purchase card use has increased significantly for transactions up to $25,000, the card
 is rarely used for purchases greater than $25,000. Moreover, at overseas missions,
 card use for all purchases lagged significantly behind USAID/Washington. USAID
 has not maximized the use of purchase cards because the Office of Acquisition and
 Assistance has not developed or implemented adequate procedures to monitor,
 encourage, and enforce use of the purchase card for all eligible transactions. As a
 result, USAID did not minimize transaction costs or maximize purchase card rebates.


The 2002 audit report found that USAID did not use purchase cards to the maximum
extent possible, resulting in additional transaction costs and reduced rebates. The
Office of Acquisition and Assistance responded to the report as follows:

   •   Revised Automated Directives System 331 to require cardholders to use the
       purchase card for all eligible purchases of $100,000 or less, up to each
       cardholder’s transaction limit.

   •   Issued Acquisition and Assistance Policy Directive 02-07 authorizing the
       issuance of purchase cards to foreign service nationals, personal services
       contractors, and third-country nationals.

   •   Revised the procurement manual to allow personnel to receive procurement
       training that qualified them to purchase goods and services up to $25,000.

Following the implementation of these new policies, USAID/Washington significantly
increased its use of the purchase card for micropurchases (purchases up to $3,000) and
procurements up to $25,000. However, USAID/Washington rarely used the purchase
cards for larger procurements as required by USAID guidance. Furthermore, at the
overseas missions, purchase card use varied from location to location, and overall card
usage lagged significantly behind USAID/Washington for all transaction types, as
illustrated in figure 1.




                                                                                          6
              Figure 1. FY 2007 Purchase Card/Purchase Order Usage


100%
 90%
 80%
 70%
 60%
 50%
 40%
 30%
 20%
 10%
  0%
       USAID/W Missions              USAID/W Missions                   USAID/W Missions
        Micropurchases*                   Purchases                         Purchases
         $3,000 or less                $3,000─$25,000                   $25,000─$100,000
            *estimated
                             Purchase Card          Purchase Order

                                                    Source: Unaudited USAID procurem ent data




Specific concerns related to purchases at each transaction level are discussed in detail
below.

   •   Micropurchases of $3,000 or less – Following the introduction of the new
       policies, USAID/Washington’s purchase card transaction volume for
       micropurchases increased significantly, from about $321,000 during FY 2000 to
       $1.4 million during FY 2007. Personnel within each bureau and office at
       USAID/Washington had access to purchase cards for micropurchases, and the
       data indicate that they used purchase cards whenever possible for
       micropurchases.

       Overseas, however, mission personnel used purchase cards for $1.4 million in
       FY 2007, or for less than half of their estimated total micropurchase transactions.
       Furthermore, some missions continue to use purchase orders for most or all of
       their micropurchase transactions. For example, according to USAID’s
       procurement records, USAID/Haiti’s 473 micropurchases totaled $422,000 in
       FY 2007, but the mission used its purchase card for only about 25 percent of
       these transactions. During FY 2007, USAID/Nigeria’s 67 micropurchases totaled
       $77,000, but the mission did not use the purchase card for any micropurchase
       transactions.

   •   Procurements between $3,000 and $25,000 – USAID’s new policies led to
       increased use of the purchase card for procurements between $3,000 and
       $25,000 at USAID/Washington.       According to the 2002 report, USAID
       cardholders did not routinely use purchase cards for transactions above the


                                                                                                7
        micropurchase level, and only 5 of 107 USAID/Washington cardholders had the
        authority to make these larger purchases. In comparison, by March 2008, 38 of
        106 cardholders at USAID/Washington could make purchases between $3,000
        and $25,000, and purchase cards were being used for about $2 million worth of
        goods and services. This represented about 71 percent of USAID/Washington’s
        transactions in this price range during FY 2007.

        At the overseas missions, in contrast, personnel rarely used purchase cards for
        procurements between $3,000 and $25,000. Only 39 of 63 missions had
        cardholders with a card limit that would allow purchases above the $3,000
        threshold, and missions used purchase cards for only $1.1 million, or about 12
        percent of all transactions in this price range during FY 2007.

    •   Procurements between $25,000 and $100,000 – Neither USAID/Washington
        nor the missions maximized the use of purchase cards for procurements above
        $25,000. Only warranted procurement personnel 2 were allowed to complete
        such purchases, and few such officials had been issued purchase cards. As of
        March 2008, only 1 of USAID’s 119 warranted contracting officers had been
        issued a purchase card allowing purchases up to $100,000, and purchase cards
        were used for only about $300,000 (7 percent) of such transactions at
        USAID/Washington during FY 2007.

        Overseas, 45 warranted procurement officials, usually mission executive officers,
        obtained purchase cards with limits over $25,000, but they rarely used the cards
        for large purchases. According to USAID’s procurement data, during FY 2007,
        mission personnel used the purchase card for only about $392,000 (4 percent) of
        these larger transactions.

USAID/Washington and the missions did not use the purchase card to the maximum
extent possible because the Office of Acquisition and Assistance did not collect
complete and accurate purchase card and purchase order data, assess variations in
purchase card usage rates, or monitor Agencywide compliance with USAID purchase
card requirements. For example, the office did not systematically collect purchase order
data for comparison to purchase card data to assess the card use rate for transactions
under $3,000. Furthermore, while the office collected purchase order data for larger
transactions, it did not use this information to manage the purchase card program.
Thus, the office did not use available information about the large number of purchase
order transactions between $25,000 and $100,000 to note that warranted procurement
personnel were not obtaining and using purchase cards for all eligible purchases.

According to Office of Acquisition and Assistance personnel, some mission cardholders
were reluctant to use the card because of the increased possibility of credit card fraud
that exists in some countries. However, although credit card fraud is a high risk in some
countries, USAID officials agreed that these concerns should not limit purchase card use
when making procurements from U.S.-based vendors. Both USAID/Washington and the
missions commonly used purchase orders instead of purchase cards to buy
merchandise and services from U.S.-based vendors that are known to accept purchase
cards and offer low fraud risk, such as Dell Computer and Hewlett-Packard.

2
 These officials receive delegations of authority from the Director, Office of Acquisition and
Assistance to conduct acquisition procedures within their warrant authority.


                                                                                            8
Furthermore, in a sample of 18 USAID/Washington purchase orders with a total value of
$618,000, all 18 U.S.-based vendors confirmed that they would have accepted the
purchase card.

Because USAID does not use purchase cards for all eligible purchases, the Agency
continues to pay larger transaction costs and receive smaller rebates than it should. The
Procurement Executives Council 3 established a goal for civilian agencies to use the
purchase card for 80 percent of their micropurchases and 75 percent of purchases under
$25,000. Had USAID reached these targets at all missions and offices, and also used
the purchase card for 75 percent of its purchases between $3,000 and $100,000, its total
purchase card transaction volume would have increased from $6.7 million to $23.8
million in FY 2007. Thus, the Agency could have saved an additional $230,000 per year
in transaction costs and received an additional $85,000 in volume-based rebates from
Citibank.

To reduce transaction costs and increase rebates, the Office of Inspector General
makes the following recommendation:

         Recommendation No. 1: We recommend that the Director, Office of
         Acquisition and Assistance develop a plan to collect complete and
         accurate purchase card and purchase order data, assess variations in
         purchase card usage rates, and monitor Agencywide compliance with
         USAID requirements to maximize the use of purchase cards for all eligible
         transactions.

USAID Should Maximize Prompt Payment Rebates
    Summary: Under its contract with Citibank, USAID receives rebates that reward it for
    prompt monthly payments. Although the Office of Financial Management
    implemented an accelerated payment system that allows USAID/Washington to pay
    its purchase card bills in less than 7 days, the Agency did not maximize its rebates.
    Because the Office of Financial Management did not require missions overseas to
    adopt the accelerated payment system, the missions paid their bills, on average, 26
    days after receipt during FY 2007. Consequently, USAID lost an estimated $46,000
    in potential rebates.


Under the General Services Administration’s contract with Citibank, USAID receives a
prompt payment rebate based on the length of time required to pay each account’s
monthly invoice. Faster payments earn higher rebates, but USAID forfeits rebates for
invoices that are not paid within 30 days. USAID’s Automated Directives Systems 331.2
requires that missions pay their purchase card invoices in accordance with the Prompt
Payment Act. A payment is generally considered timely if USAID pays an invoice within
30 days of receipt.

In 2002, in response to an audit recommendation in the previous report, the Office of
Financial Management determined that the optimum payment date for Citibank invoices

3
  The Procurement Executives Council is an interagency council consisting of procurement
executives in the executive branch that monitors and improves the Federal acquisition system.


                                                                                            9
was 5 days. Given the processing time requirements, this meant that USAID should pay
its invoices as soon as possible upon receipt. USAID/Washington subsequently began
paying its monthly Citibank bills immediately and requiring individual cardholders to
reconcile their account charges within 5 days. Specific payments for any disputed
charges can be suspended and investigated without slowing the overall payment
process. As a result of this improved process, during FY 2007 USAID/Washington paid
its purchase card bills close to the optimal date, on average within 6.7 days from invoice
receipt.

However, USAID still has not maximized its prompt payment rebates. The Office of the
Chief Financial Officer did not require overseas missions to adopt an accelerated
payment system. USAID’s financial management guidance for missions does not
mention the benefit of paying purchase card invoices promptly and does not encourage
missions to do so. Thus, missions paid their bills, on average, 26 days after receipt of
invoice during FY 2007. Although these payments were usually completed within the 30
days required by the Prompt Payment Act as specified in USAID guidance, faster
payment would have resulted in higher rebates.

As a result, USAID has not maximized its prompt payment rebates. During FY 2007, if
the missions had paid their invoices within 6.7 days of receipt, USAID’s rebate would
have increased by about $46,000. 4

To maximize prompt payment rebates, the Office of Inspector General makes the
following recommendation:

         Recommendation No. 2: We recommend that USAID’s Chief Financial
         Officer develop guidance and procedures to accelerate the payment of
         purchase card invoices to maximize prompt payment rebates for
         overseas missions.

USAID Should Strengthen Training
for Cardholders and Supervisors

    Summary: Chapter 4500 of the Treasury Financial Manual requires Federal agencies
    to develop a training program for cardholders and approving officials in a purchase
    card program. Although the Office of Acquisition and Assistance developed and
    implemented a training program for USAID/Washington’s staff, the office provided
    limited training at overseas missions. Many mission cardholders and supervisors did
    not receive training because the Office of Acquisition and Assistance did not dedicate
    sufficient training resources for this effort or develop alternatives to classroom
    training. Without adequate training, there is increased risk that cardholders may
    underuse or misuse the purchase card.




4
  This estimate assumes that the missions implement recommendation no. 1 and achieve a
purchase card transaction volume of $23.8 million annually. If mission transaction volume
remains at FY 2007 levels, the potential rebate increase resulting from faster payments would be
approximately $6,500 per year.


                                                                                             10
Chapter 4500 of the Treasury Financial Manual, 5 titled Government Purchase Cards,
states that all agencies participating in the purchase card program must develop a
training program for cardholders and approving officials. Moreover, USAID’s Automated
Directives System 331.3.5 states that program participants must pass training
requirements to be eligible for procurement duties.

As a result of the 2002 audit, the Office of Acquisition and Assistance agreed to expand
its purchase card training program to include the following:

    •   A 3-hour classroom course or an interactive computer training program for all
        cardholders

    •   A Web-based training program designed by the General Services Administration
        for all cardholders

    •   A 40-hour acquisition training course for cardholders with spending limits
        between $3,000 and $25,000

    •   Specialized supervisory training

From March 2005 to March 2008, the Office of Acquisition and Assistance conducted
classroom training for nearly all USAID/Washington cardholders and program
supervisors. As of March 2008, acquisition and assistance trainers had provided
classroom instruction covering the major directives and policies applicable to purchase
card use to all 106 USAID/Washington cardholders and to 54 of 55 program supervisors.
Furthermore, all USAID/Washington cardholders with spending limits between $3,000
and $25,000 received the required acquisition training.

However, the training efforts for mission cardholders and supervisors were less
comprehensive. Office of Acquisition and Assistance officials provided regional
classroom training at nine overseas missions in 2005 and 2006 and no classroom
training at the missions in 2007. As a result, fewer than 25 percent of the current
mission cardholders and supervisors have received classroom training. Fifty-nine
percent of mission purchase cardholders and 45 percent of supervisors who did not
receive formal classroom training instead “self-certified” that they had reviewed a
computerized presentation of the purchase card training and had read the program
manual. Moreover, 17 percent of mission cardholders and 35 percent of supervisors
received no training, as illustrated in table 1.




5
  The Treasury Financial Manual is the U.S. Department of the Treasury's official publication for
financial accounting and reporting of Federal Government receipts and disbursements. Volume
1, Part 4, Chapter 4500 codifies procedures including program controls and invoice payments.


                                                                                              11
          Table 1. Overseas Mission Cardholder and Supervisor Training,
              Purchase Card Program Participants, as of March 2008

Training Type                      Cardholders                      Supervisors
                          Number of     Percentage of      Number of     Percentage of
                          Participants   Participants      Participants    Participants
Classroom Training             26             24                13              20
Self-Certified Training        63             59                29              45
No Training                    17             17                22              35
Total Number of
Mission Cardholders          106              100               64              100

Although self-certification allowed trainers to provide a substitute for formalized
classroom instruction, participants were not tested on the material and did not receive a
computer-generated certificate indicating that all the course material was reviewed.
According to Office of Acquisition and Assistance officials, cardholders frequently
request information about basic purchase card operations, which would indicate that
self-certification may not be sufficient for knowledge retention about proper card usage.

Office of Acquisition and Assistance officials stated that trainers could not provide
classroom training to many mission cardholders and program supervisors because
budget constraints limited their ability to travel. Although the Office of Acquisition and
Assistance had a training budget of about $150,000 to $200,000 during FY 2007,
officials did not allocate any of these funds for training overseas purchase cardholders.
Moreover, inadequate training persisted because the Office of Acquisition and
Assistance did not develop alternatives to classroom training, such as verifiable
computer-based training, testing, or the use of knowledgeable acquisition officials to
train program participants on a regional basis.

Although the Office of Acquisition and Assistance did a commendable job training its
purchase cardholders at USAID/Washington, it relied too heavily on a self-certification
process for mission purchase cardholders. Since the self-certification process offers
limited assurance that participants fully understand purchase card policies and
procedures, its merits are questionable.       Without adequate training, purchase
cardholders and approving officials may be unaware of critical management controls and
procedures that ensure the proper use of USAID’s purchase cards to maximize benefits
as well as safeguard the program from misuse.

To improve USAID’s training efforts, the Office of Inspector General makes the following
recommendation:

       Recommendation No. 3: We recommend that the Director, Office of
       Acquisition and Assistance develop a plan for a comprehensive purchase
       card training program for cardholders and supervisors at overseas
       missions.




                                                                                       12
USAID Should Fully Implement
Its Annual Review Program

 Summary: Automated Directives System 331.3.5 requires a designated reviewer to
 conduct an annual purchase card program review.               Additionally, Automated
 Directives System 596.3.1 requires USAID to incorporate appropriate segregation of
 duties into its management control activities. The Office of Acquisition and
 Assistance developed guidance and procedures for an annual review process, but
 these procedures were never implemented at USAID/Washington or at most
 missions. Furthermore, the USAID directive allowed many cardholders at overseas
 missions to review their own transactions, thus limiting the value of the process.
 These deficiencies occurred because the Office of Acquisition and Assistance did not
 give adequate attention to the design and implementation of its annual review
 program. As a result, USAID continues to lack an effective purchase card annual
 review process to help ensure an efficient and effective purchase card program.


As reported in 2002, USAID had not designed and implemented effective controls over
its purchase card program to minimize the risk of inappropriate use of purchase cards.
In response to an audit recommendation, the Office of Acquisition and Assistance
expanded Automated Directives System 331.3.5 to require that a designated reviewer
conduct an annual purchase card program review. During this review, officials should
use a detailed checklist to determine, among other things, whether:

   •   Purchase cards were used for authorized purchases only.

   •   Cardholder files contained adequate supporting documentation.

   •   Cardholder reconciliation and review and approvals took place in a timely
       manner.

   •   Cardholders obtained adequate funding in advance of each purchase.

The Office of Acquisition and Assistance’s Purchase Card manual requires that these
purchase card reviews be conducted at USAID/Washington by the Office of Acquisition
and Assistance and by purchase card program supervisors at each mission. Since it is a
management control activity, the review program is subject to Automated Directives
System 596.3.1, which requires that the procedures incorporate appropriate segregation
of duties to reduce risks of error or fraud.

However, although the Office of Acquisition and Assistance developed and disseminated
these annual review procedures, the procedures were never fully implemented. At
USAID/Washington, cardholder reviews were to begin in 2004, but none have yet been
initiated. Moreover, according to Office of Acquisition and Assistance records, few
overseas missions completed the required annual reviews. During FY 2007, for
example, records indicate that only one mission completed the cardholder review.




                                                                                     13
In addition, the design of the current review program does not allow for appropriate
segregation of duties at overseas missions. According to the review program guidance,
purchase card supervisors should conduct the annual reviews at each mission.
However, at many missions, these supervisors are also cardholders, and in several
instances they are a mission’s only cardholder.         Consequently, some mission
cardholders would be reviewing their own transactions, which would greatly limit the
value and effectiveness of this management control procedure.

These deficiencies occurred because managers within the Office of Acquisition and
Assistance did not give adequate attention to the design and implementation of the
annual review program. According to Office of Acquisition and Assistance officials,
personnel were not readily available, so the reviews at USAID/Washington have been
delayed. The overseas missions did not conduct the reviews, in part, because the Office
of Acquisition and Assistance did not monitor compliance with the review requirement,
and because there were neither incentives for compliance nor negative consequences
for noncompliance.

Because the review program was not adequately designed and implemented, USAID
cannot confirm that cardholders are consistently and appropriately implementing
purchase card policies and procedures. To correct this problem, the Office of Inspector
General makes the following recommendation:

       Recommendation No. 4: We recommend that the Director, Office of
       Acquisition and Assistance develop an implementation plan for an annual
       review program that incorporates appropriate segregation of duties.




                                                                                    14
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, the Office of Acquisition and Assistance and the Office
of the Chief Financial Officer agreed with all four recommendations. Management also
described the actions it plans to take to address the recommendations. Management
comments and our evaluation of them are summarized below.

In response to recommendation no. 1, the Director, Office of Acquisition and Assistance
agreed to develop a program plan to collect purchase card data from the issuing bank
and from its own data warehouse to assess variations in purchase card usage in order to
monitor compliance for all eligible procurements. These actions are expected to be
completed by January 31, 2009. Based on management’s response, we consider that a
management decision has been reached on this recommendation.

In response to recommendation no. 2, the Chief Financial Officer agreed to issue a
directive within 90 days that encourages operating unit managers to fully take advantage
of accelerating payments on all Agency credit cards. Based on management’s response,
we consider that a management decision has been reached on this recommendation.

In response to recommendation no. 3, the Director, Office of Acquisition and Assistance
agreed to develop an online course for all cardholders and supervisors. The training will
require participants to demonstrate mastery by completing a test before they are issued
a purchase card. These actions are expected to be completed by January 31, 2009.
Based on management’s response, we consider that a management decision has been
reached on this recommendation.

In response to recommendation no. 4, the Director, Office of Acquisition and Assistance
agreed to develop a purchase card review program that incorporates appropriate
segregation of duties. These actions are expected to be completed by January 31, 2009.
Based on management’s response, we consider that a management decision has been
reached on this recommendation.

In additional comments, the Director of the Office of Acquisition and Assistance noted
that the challenging business environment in many overseas locations makes extensive
card usage for eligible purchases unrealistic in the near future. Mission circumstances
may limit card usage, but we believe that the proposed actions will ensure progress
toward maximized card use for eligible transactions as required by USAID guidance.

The Director also noted that budgetary and staffing challenges limit USAID’s ability to
implement an appropriate training program for overseas cardholders. Despite these
challenges, we believe that the computer-based training program described in
management’s response can address the recommendation while minimizing travel time
and expenses for mission personnel and Washington-based trainers.

Finally, the Director cited understaffing as a challenge in implementing appropriate
segregation of duties in the annual review program. We agree that heavier workloads at



                                                                                         15
the missions make an annual review process with appropriate segregation of duties
difficult to implement, but we also note the importance of adequate internal controls over
the purchase card program.




                                                                                       16
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Performance Audits Division conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that the
Office of Inspector General plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. The audit objective was to
determine whether the Offices of Acquisition and Assistance and Financial Management
had taken sufficient corrective actions to justify final action on recommendations from
audit report 9-000-02-004-P, dated March 19, 2002. The audit scope included the five
most important recommendations from this report, those relating to card use, rebates,
training, and program monitoring. The audit scope included the implementation of
planned improvements at USAID/Washington and at 63 overseas missions. The audit
fieldwork was conducted from February 14 to April 2, 2008, at USAID/Washington.

In planning and performing the audit, we reviewed relevant guidance on mission,
USAID/Washington, and Office of Inspector General responsibilities related to actions
taken in response to audit recommendations. During the review of management
controls, we examined and assessed all purchase card transactions for fiscal year
(FY) 2007, examining vendors for propriety and investigating any questionable
transactions. We also examined controls over cardholder and supervisory training, and
judgmentally selected a sample of records for verification to enable us to assess the
accuracy and validity of the data. We interviewed a sample of cardholders to ascertain
their understanding of appropriate card uses and relevant management controls.
Finally, we reviewed the timeliness and completeness of the cardholder annual review
process and assessed its effectiveness as a management control for the purchase card
program. We considered guidance and comments developed by the Offices of
Acquisition and Assistance and Financial Management in response to the previous audit.

The audit considered FY 2007 purchase card and purchase order transaction data that
were provided by the Office of Acquisition and Assistance and were not audited.
Because the Office of Acquisition and Assistance does not maintain a complete
database of purchase orders under $3,000 for overseas missions, we developed
estimates for these transactions by extrapolating from the available purchase data for
larger procurements.

Methodology
In performing the audit work, we reviewed the Audit of USAID’s Commercial Purchase
Card Program, dated March 19, 2002. We also reviewed the applicable regulations and
USAID policies and procedures pertaining to USAID’s purchase card program, including
Automated Directives System Chapter 331, Simplified Acquisitions, Micro-Purchases,
and Use of the USAID Worldwide Purchase Card; the USAID Worldwide Purchase Card
Manual (October 2007); the General Services Administration umbrella contract with
Citibank for purchase card services; and relevant portions of the Treasury Financial

                                                                                     17
Manual. In addition, we reviewed management’s written response to the audit, which
outlined the specific steps to be taken in response to the five selected recommendations.

To determine the effectiveness of management’s response to the five selected
recommendations, we collected and analyzed FY 2007 procurement transaction data.
We stratified the purchase card and purchase order data by dollar value to establish
card utilization rates for transactions under $3,000, from $3,000 to $25,000, and from
$25,000 to $100,000. We also analyzed a report of specific purchase order transactions
made by the Office of the Chief Information Officer, representing about 25 percent of
USAID/Washington’s purchase orders, to test whether the purchase card could have
been used.       To determine card use rates for micropurchases, we interviewed
cardholders and analyzed the procurement data. In counting transactions, purchases for
multiple items at the same price from the same vendor on the same date were assumed
to be a single transaction.

To evaluate USAID’s effort to increase purchase card rebates, we reviewed data from
both USAID and Citibank related to the rebate program. We also reviewed data
obtained during interviews and correspondence with Office of Financial Management
and Citibank personnel. The rebate calculation methodology was extracted from the
Citibank contract and applied to a sample of monthly transaction activity to ensure that
rebates were being calculated properly. We analyzed the monthly payment dates that
USAID and Citibank documented to verify the timeliness of payments and the accuracy
of rebate calculations.

To evaluate the training program, we reviewed the training curriculums for cardholders
and program supervisors. We also reviewed information verifying training and card
usage through interviews, correspondence, and questionnaires from USAID/Washington
and mission cardholders as well as the training coordinators from the Office of
Acquisition and Assistance. We reviewed listings of authorized cardholder and
supervisor data as of March 1, 2008, and determined the number of cardholders who
were trained, self-certified, or still needed training. We judgmentally selected the files of
40 of 212 cardholders to verify that USAID maintained appropriate records documenting
training completion.

To assess USAID’s efforts to increase purchase card program monitoring, we reviewed
relevant documentation and interviewed the USAID management officials responsible for
implementing the review program. We obtained copies of the review program
methodology and confirmed the participation of overseas missions.

We established materiality thresholds and estimates of potential savings based on the
Procurement Executives Council’s Governmentwide Acquisition Performance
Measurement Program for purchase card use at various transaction levels. The
program’s goal was for civilian agencies to use purchase cards for 80 percent of their
micropurchases or 75 percent of transactions below $25,000. Although the council did
not establish a specific program goal for transactions between $25,000 and $100,000,
we set a materiality threshold of 75 percent, since USAID’s procurement data indicated
that some mission and USAID/Washington offices already met or exceeded this level of
purchase card use. To estimate cost savings from purchase card use, we used the $87
per transaction savings estimate developed in 2006 by the Association of Government
Accountants. This estimate was not audited but lies within the $54 to $92 savings range
developed by the General Services Administration.


                                                                                          18
                                                                             APPENDIX II




MANAGEMENT COMMENTS



August 7, 2008

MEMORANDUM

TO:            IG/A/PA, Director, Steven H. Bernstein

FROM:          M/OAA, Director, Maureen A. Shauket

SUBJECT:       M/OAA Comments on Draft Follow-up Audit of USAID’s Government-wide
               Commercial Purchase Card Program Report

This memorandum provides M/OAA comments on the draft follow-up audit of USAID’s
Government-wide Commercial Purchase Card Program report. While M/OAA generally
agrees with the results of the follow-up audit as stated in the draft report, we would like
to point out some of the challenges that we face in addressing the full extent of the noted
weaknesses and recommendations.

We appreciate that the draft report notes the significant progress that M/OAA has made
in developing policies that require card-holders to use the purchase cards for all
procurements up to their approval card limit and that M/OAA developed and
implemented an expanded training program for USAID/Washington card-holders and
supervisors.

M/OAA recognizes that there is more to be done to make the purchase card program
more efficient and to maximize the use of the purchase card as well as the rebates and
transaction fee benefits. However, given the environment that we operate in at many
overseas posts and the current resource allotment in Washington, it is unrealistic that
100% usage of the purchase cards for eligible purchases will be achieved in the near
future.

Our overseas missions in countries such as Haiti and Nigeria (which were mentioned in
the draft report) often work in a very challenging environment that puts limitations on
maximizing purchase card usage. Our Agency is strongly encouraging it’s A&A
workforce to utilize organizations and firms in the cooperating countries. In many of
these countries, a cash economy still exists and vendors do not accept purchase cards
as a payment method. In addition, many of these countries rank in the worst positions on
Transparency International’s annual corruption index. The draft report suggests using
U.S. based vendors to buy merchandise and services in these circumstances. This,



                                                                                        19
                                                                             APPENDIX II


however, would not allow us to respond to the Agency’s development goal of enhancing
the capacity of local organizations and firms. In addition, the required merchandise and
services are often needed immediately to affect the development program on the
ground. Ordering from the United States can be a lengthy and costly process, with
significant overseas shipping costs and customs clearance process that would often
outweigh any gains in terms of rebates and transaction cost fees from using the
purchase card. In addition, Missions often use purchase orders with individuals for the
completion of deliverables. These individuals are normally unable to accept purchase
card payments.

With regards to training of purchase card-holders and supervisors, the draft report notes
the significant progress made in USAID/Washington while noting less progress being
made at the overseas missions. This discrepancy is a result of staff time and budget
issues. Training is expensive. The training for the purchase card program competes with
other Agency training programs for funding, some of which – like the CTO certification
program and FAC-C training – are the submit of OIG and other reports similar to the
purchase card program. M/OAA has been in a position of trying to maximize the impact
of the training that we fund among the competing interests while constantly requesting
more resources.

In addition to central funding for training programs, we face the obstacle of overseas
missions being short-staffed and under-funded. It is difficult for a Mission Director or an
Executive Officer to release a card-holder for 40 hours to take the training to upgrade
card limits when there is no back-up for his/her day-to-day responsibilities. Missions also
lack funding for travel to the training venue.

M/OAA wishes to fully comply with an annual review of the purchase card program that
incorporates appropriate segregation of duties. Since 2001, however, M/OAA has been
chronically understaffed while being asked to handle larger and larger volumes of
acquisition and assistance. For example, in 1998, M/OAA had 180 staff on board and
handled approximately $2.5 billion in actions. In 2007, M/OAA had 113 staff on board
and completed more than $10 billion in actions. This represents a % decrease in staff
and a 5 fold increase in workload. M/OAA has requested budget increases that would
significantly increase staffing to allow issues such as the annual review to be fully
addressed. This request is under consideration by Agency leaders.

With these comments, M/OAA would like to address the specific recommendations
directed to M/OAA in the draft report:

       Recommendation No. 1: We recommend that the Director, Office of
       Acquisition and Assistance develop a plan to collect complete and
       accurate purchase card and purchase order data, assess variations in
       purchase card usage rates, and monitor Agency-wide compliance with
       USAID requirements to maximize the use of purchase cards for all eligible
       transactions.

       Management Decision: The Director, Office of Acquisition and
       Assistance will develop a program plan to collect complete and accurate
       purchase card data from the issuing bank and from the OAA data
       warehouse to assess variations in purchase card usage in order to
       monitor agency-wide compliance for all eligible procurements. The Office


                                                                                        20
                                                                    APPENDIX II


did not systematically collect purchase order data for comparison to
purchase card data to assess the card use rate for transactions under
$3,000 as Federal reporting of micro-purchases is not required. The
general rule in the policy guidance is that if the vendor accepts the
government purchase card then the requestor must use the card. Target
Completion Date: January 31, 2009

Recommendation No. 3: We recommend that the Director, Office of
Acquisition and Assistance develop a plan for a comprehensive purchase
card training program for cardholders and supervisors at overseas
missions.

Management Decision:           The Director, Office of Acquisition and
Assistance developed a Statement of Work for the design and
development of a Computer-Based Training (CBT) on-line course for all
cardholders and organization program coordinators. The training will
cover all aspects of the purchase card program to ensure that all
participants are aware of what their role entails in the program. The CBT
will have a quiz and a Certificate of Completion at the end of the training
session. The participant will be provided a clear description of the rules
and regulations of the purchase card program. The Cardholder must
obtain a score of 80% correct answers in order to be issued a
government purchase card in addition to meeting the other mandatory
training requirements. This training will be available for the new
Smartpay2 Purchase Card Program which will be implemented on Nov. 3,
2008 and will be housed on the USAID Purchase Card website to allow
prospective trainers to take the training at their convenience. Target
Completion Date: January 31, 2009.


Recommendation No. 4: We recommend that the Director, Office of
Acquisition and Assistance develop an implementation plan for an annual
review program that incorporates appropriate segregation of duties.

Management Decision:       The Director, Office of Acquisition and
Assistance will direct the Chief, Evaluation Division to develop
implementation for the annual review that incorporates appropriate
segregation of duties for the Executive Officers stationed overseas.
Target Completion Date: January 31, 2009.




                                                                              21
                                                                             APPENDIX II




MEMORANDUM

TO:            IG/A/PA, Steven H. Bernstein

FROM: M/CFO, David D. Ostermeyer

DATE:          August 14, 2008

SUBJECT:       M/CFO Comments on Draft Follow-up Audit of USAID’s Government-wide
               Commercial Purchase Card Program Report

This memorandum is in response to the Office of Inspector General’s request for
feedback on the draft follow-up audit of USAID’s Government-wide Commercial
Purchase Card Program report. The CFO fully agrees with the IG recommendation that
the Agency should maximize prompt payment rebates whenever practical. The
management decision to take advantage of these rebates rests with the individual
operating unit. Mission operating units should take into consideration the opportunity for
potential gain associated with those rebates while weighing the cost benefit to the
Operating Unit in doing so.

        Recommendation No. 2: USAID’s Chief Financial Officer develop guidance
        and procedures to accelerate payment of purchase card invoices to
        maximize prompt payment rebates for overseas missions

        Management Decision: The Office of the Chief Financial Officer will
        issue a directive reminding Agency Operating Units of the opportunity
        costs available to the Agency in maximizing use of rebates. The CFO
        directive will encourage Operating Unit managers to fully take advantage
        of accelerating payments on all Agency credit cards when practical. This
        action will be completed within ninety days.




                                                                                        22
                                                                                      APPENDIX III



                Findings and Recommendations from the OIG’s 2002 Audit of
               USAID’s Governmentwide Commercial Purchase Card Program

                                                                                                       Final
            Finding                                  Recommendation                                   Action
                                 We recommend that the Director of the Office of
    1. USAID did not use         Procurement 6 develop and document procedures to
    purchase cards to the        encourage, monitor, and enforce the use of purchase cards
    extent required by           for all eligible micropurchases.                                 9/30/2003
    Federal laws and             We recommend that the Director of the Office of
    regulations, or USAID        Procurement revise the Automated Directives System to
    policies, resulting in       authorize and encourage use of the card above the
    additional transaction       micropurchase level and develop a plan to provide the
    costs and reduced            necessary training for the purchase cardholders to increase
    rebates.                     their delegation of authority, when appropriate, to make
                                 purchases above the micropurchase level.                         9/30/2003
    2. USAID did not
    maximize the amount of
    possible rebates from the
    purchase card provider
    because it had not
    increased the number of      We recommend that the Chief Financial Officer develop a
    purchase card                plan to qualify for additional rebates by determining the
    transactions, expanded       optimal payment date for purchase card invoices and
    the purchase card            developing and documenting procedures requiring that
    program to include           payments are made by that date.
    higher-value purchases,
    paid invoices promptly, or
    implemented certain
    electronic commerce
    policies.                                                                                     11/13/2003
                                 We recommend that the Director of the Office of
                                 Procurement develop and implement procedures requiring
                                 purchase cardholders use their purchase cards to order
                                 goods and services from the U.S. Government's most
                                 preferred sources and that they distribute purchases
                                 equitably among qualified suppliers.                             9/30/2003
    3. USAID did not design      We recommend that the Director of the Office of
    and implement effective      Procurement develop, document, and distribute standard
    controls over its purchase   procedures, consistent with the Treasury Financial Manual,
    card program to minimize     that require cardholders to adequately safeguard purchase
    the risk of inappropriate    cards and require that all cardholders and approving officials
    use of purchase cards.       comply with those procedures.                                    9/30/2003
                                 We recommend that the Director of the Office of
                                 Procurement revise USAID guidance to indicate the type of
                                 approval and support documentation required to be
                                 maintained by cardholders, and develop procedures
                                 requiring that such documentation is properly maintained.
                                                                                                  9/30/2003


6
    The Office of Procurement is presently referred to as the Office of Acquisition and Assistance.


                                                                                                   23
                                                                                  APPENDIX III


                              We recommend that the Director of the Office of
                              Procurement revise USAID guidance to indicate which
                              purchase card transaction functions should be segregated
                              and develop procedures that require proper segregation of
                              duties.                                                        9/30/2003
                              We recommend that the Director of the Office of
                              Procurement review its purchase card training program and
3. (cont'd). USAID did not    develop a plan to increase the subject matter covered by the
design and implement          training, as well as determine how often cardholders and
effective controls over its   approving officials should be required to receive training
purchase card program to      updates.                                                       9/30/2003
minimize the risk of          We recommend that the Director of the Office of
inappropriate use of          Procurement review the staffing and management structure
purchase cards.               of its purchase card program and determine the actions
                              necessary to provide the Agency Program Coordinator with
                              the resources and authority to properly administer the
                              program.                                                       3/21/2003
                              We recommend that the Director of the Office of
                              Procurement develop a plan and procedures to monitor and
                              manage its purchase card program as required by the
                              Treasury Financial Manual.                                     9/30/2003




                                                                                             24
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
